                                                                                              /I
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: I03110062                                                                    Page 1 of 1     11
         The National Science Foundation (NSF), Office of Inspector General (OIG), conducted a-random
         review of FY-01 awards, conferences, workshops and symposiums to assess compliance with
         applicable laws, regulations and award conditions.

         NSFIOIG sent an email to the university1 requested that they provide financial information and
         supporting documentation on an NSF award. The University supplied NSF with some of the
         requested materials. NSF sent a second letter requesting information and supporting
         documentation as to the disposition of the registration fee that was charged for the wo5kshop.

         The University responded that a third party organization received the registration fees to
         coordinate and manage the conference. The University did not receive any program income.
                                                                                               ;/

         Final Disposition:
         The university received no program income. Accordingly, t h s case is closed .
                                                                                                   11




          1
          Footnote Redacted
          Footnote Redacted
         3~ootnoteRedacted




VSF OIG Form 2 (1 1/02)
